                          ,I



                          1         NATIONAL SCIENCE FOUNDATION
                          1              4201 WILSON BOULEVARD
                      '1                ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTORGENERAL
                     'I
                       I
          MEMO TO: File
                    I/
          FROM:                SA
                   11
          DATE:                December 19,2000
                   I/                                               !


          SUBJECT: Case Closeout, #I000900 18
                     I
                   I/




          1. This case was initiated as an investigation (I Case) on September 15, 2000
              lbased on information provided by --- -- - -
                                                       .                  Natienal
                                                                                - . Science
                                                                                    -...
             'iFoundation Credit Union (NSFCU). The information alleged that
             ,;Programand Technology Specialist utilized her Government Issue Visa card
             ,Ifor personal reasons.

                in he
                   I



          2.          Office of Inspector General (OIG), ir:vesiigatedihe allegation, and
                ireferreii the case to                  Director, Office of Integrative
                :IActivities for administrative action.
               Il
                                    -
          3. ;The SUBJECT,              was issued a letter of official reprimand (attached),
             ,and her Visa card was confiscated and destroyed.
               1
          4. ';Thisinvestigation is closed and no further action is being taken by OIG at this
              time.
                I

               1
                 I
